                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




                   We received information that a part-time accounting assistant' (subject) at a grantee
          institution2 embezzled approximately $130,000 in non-federal hnds. The Los Angeles County
          District Attorney's office filed a complaint against the subject consisting of 18 feldhy counnf s:
           6 counts of grand theft and 12 counts of forgery. The subject pled guilty td and wbs
          convicted of all charges. She was sentenced to 5 years probation, 361 days in jail (with credit
          for time served), and restitution of $238,240.33 plus 10% interest per year.

                 Based on an OIG recommendation, NSF debarred the subject for a period of three
          years, effective 29 June 2006-29 June 2009.~

                    Accordingly, this case is closed.




           See Attachment 1 (Final Debarment Notice)



NSF OIG Form 2 (1 1/02)
4
                                      NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON, VIRGINIA 22230




    /
           OFFICE O F M E
          D E P U M DIRECTOR




        CERTIFIED MAIL --RETURN RECEIPT REQUESTED

        Betsy Demay




                Re: Debarment

        Dear Ms. Demay:
    ,
        On June 29,2006, the National Science Foundation ("NSF") sent you a Notice of Proposed
        Debarment in which NSF proposed to debar you fiom directly or indirectly obtaining the benefits

        giving rise to NSF's decision to propose your debarment. Specifically, NSF indicatedlin the
        Notice that the proposed debarment is based upon your convictions on eighteen felony counts of
                                                                                                       I
        of Federal grants for a period of three years. The Notice sets forth in detail the circudstances I


        grand theft and forgery over a two-year period. In that Notice, NSF provided you witd thirty dlys
        to respond to the proposed debarment.

        Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
        debarred until June 29,2009. Debarment precludes you from receiving Federal financial and
        non-financial assistance and benefits under non-procurement Federal programs and activities
        unless an agency head or authorized designee makes a determination to grant an exception in
        accordance with 45 CFR Section 620.215. Non-procurement transactions include grants,
        cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
        subsidies, insurance, payments for specified use, and donation agreements.

        In addition, you are prohibited fiom receiving Federal contracts or approved subcoiltracts under
        the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart 9.4 for the period ofkhis
        debarment. 45 CFR Section 620.1 10(c). During the debarment period, you may not dave
        supervisory responsibility, primary management, substantive control over, or critical
            a
        on, gant, contract, or cooperative agreement with any agency of the Executive Branbh of the'
        Federal Government.
If you have any questions regarding the foregoing, please contact Eric Gold, Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
                                                                                        I1
                                                                                                 1
Room 1265, Arlington, Virginia, 22230.



                                                   Sincerely,



                                                   Kathie L. Olsen
                                                   Deputy Director
